c/mj

V

VIRGINIA: IN THE CIRCUIT COURT FOR THE CITY OF PORTSMOUTH
VERONICA M. JOHNSON,

)
)
)
)

Plaintiff,

)

v.
ROCK SOLID JANITORIAL, INC.
and
SELECTIVE INSURANCE CO.
OF AMERICA,
Defendants.

Case No. CL16003713-01

)
)
)
)
)
)
)
)
)

FINAL ORDER
On November 26, 2018, the parties appeared before the Court, by counsel and pro se, to
be heard on Defendants’ Rock Solid Janitorial, Inc. (“Rock Solid”) and Selective Insurance Co. of
America, to the extent that plaintiff Veronica M. Johnson (“Johnson” or “Plaintiff’) improperly
identified Selective Way Insurance Company as Selective Insurance Co. of America Motion to
'

Dismiss this action because Plaintiff lacks standing to pursue the claims asserted and failed to join
all necessary parties.

TV..

''pie.

QlT t//<

4

Upon consideration of the pleadings and briefs filed hereinithe evidence presented ore
tenus and the arguments of the parties heard by the Court, and for the reasons stated from the bench ^
and incorporated herein, the Court finds:
Plaintiff does not have standing because she is not a beneficiary under Rock Solid’s
7k^./»fc. iy
PrlvrSj
insurance policy, does not have a contract with Rock Solid’s insurance companyand has suffered
a.

no loss or any out-of-pocket expenses;
b.

Plaintiff sued Rock Solid and Selective Insurance Co. of America, jointly and

severally;
\\

Page 1 of3

APPEA/D/X A

if

’Av

%

c.

The general district court for the City of Portsmouth did not grant any request by

Plaintiff to amend her warrant in debt to name additional defendants, including Selective Way
Insurance Company and Selective Insurance Group, Inc.; and
d.

Selective Way Insurance Company and Selective Insurance Group, Inc. are not

before this Court.
Accordingly, it is hereby ADJUDGED, ORDERED and DECREED that:
The Motion to Dismiss is GRANTED and the case is DISMISSED with PREJUDICE and
removed from the docket.
Nothing remaining to be done herein, this matter shall be placed with the ended matters,
properly indexed. The Clerk is directed to send an attested copy of this Final Order to all parties
and counsel of record.
IT IS SO ORDERED.

This 3/

day of P<gctC2018

Judge H. Thomas Padrick, Jr.^

A Copy, TesterCyhdlia PrMorrison
Clerk of the Circuit Court of the
City of Portsmouth, Virginia
By

Page 2 of3

D.C.

v. ..

i'

I ASK FOR THIS:

KelleyJd Holland, Esq. (VSB No. 79627)
kholland@williamsmullen.com
WILLIAMS MULLEN
A Professional Corporation
222 Central Park Avenue, Ste. 1700
Virginia Beach, Virginia 23462
(757) 499.8800 (telephone)
(757) 473.0395 (facsimile)
Counsel for Defendant/s

SEEN AND OBJECTEDJO:

Veflbnica M. Johnson
166; Yorkshire Road
Portsmouth, Virginia 23701
Pro.se

Srol'-e*'
•|
OA

^

/v—£—,

i'

, v u cf«‘ C uc

o

c?

Fcn^YAOt_Q

Page 3 of3

K5 OUXL-f/ f n

VIRGINIA:
Jti the Supneme Gawd of Virginia held at the Supreme Gawd Studding in the
Qitg of SUchmend on Wednesday the 28th day o£ CLugust, 2019.
Appellant,

Veronica M. Johnson,
against

Record No. 190294
Circuit Court No. CL16003713-01
Appellees.

Rock Solid Janitorial, Inc., et al.,
From the Circuit Court of the City of Portsmouth

Upon review of the record in this case and consideration of the argument
submitted in support of the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.

A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

<^YNp
Deputy Clerk

'v

appEa/PH,

B"

VIRGINIA:
Jn the Supreme Count of, Virginia he&d at the Supreme Count (Building, in the
Citg, of (Richmond on (fnidag the 14th dag of (te&nuang, 2020.
Appellant,

Veronica M. Johnson,
against

Record No. 190294
Circuit Court No. CL16003713-01
Appellees.

Rock Solid Janitorial, Inc., et al.,
Upon a Petition for Rehearing

On consideration of the petition of the appellant to set aside the judgment rendered herein
on August 28, 2019 and grant a rehearing thereof, the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

(3&rQ
Deputy Clerk

"appendix

c"

;

VIRGINIA:
Jn the Supreme Count of. Virginia held at the Supteme Count {Building in the
Citg of {Richmond on Wednesday, the 28th day of {fefinuany, 2018.
Veronica M. Johnson,
against

Appellant,

Record No. 171132
Circuit Court No. CL16003713-00

Rock Solid Janitorial, Inc., et. al.,

Appellees.

From the Circuit Court of the City of Portsmouth
Upon the petition of the Veronica M. Johnson (“Johnson”) an appeal is awarded her from
a judgment rendered by the Circuit Court of the City of Portsmouth. This appeal, however, is
limited to the consideration of assignment of error No. 1, as set out in the petition for appeal.
The remaining assignments of error are refused.
Upon further consideration whereof, the Court is of the opinion that the judgment
appealed from is erroneous. Johnson served a warrant in debt upon Rock Solid Janitorial, Inc.
(“Rock Solid”) and Selective Insurance Company of America (“Selective Insurance”) and the
matter proceeded to a hearing in the General District Court of the City of Portsmouth. On the
same day the general district court judge denied Johnson relief, Johnson tendered a written notice
of appeal to the clerk of the general district court. The clerk stamped the notice of appeal as
received that day, and Johnson paid the filing fee seven days later. The general district court
judge stated on a case disposition form, however, that the court was “not accepting the notice of
appeal” because Johnson altered the pre-printed notice of appeal form. The general district court
judge directed Johnson to sign a corrected notice of appeal, but she refused to do so.
As required by Code § 16.1-112, the general district court clerk transmitted the case
materials, including Johnson’s written notice of appeal, to the circuit court. In the circuit court,
Rock Solid and Selective Insurance moved to dismiss the appeal as not perfected because
Johnson did not file a proper notice of appeal. Agreeing with this position, the circuit court
concluded it “never acquired jurisdiction” over the appeal because Johnson “failed to properly
%

_ if

APPt NDIX D

notice and to perfect the appeal” within the required time period.
In assignment of error No. 1, Johnson contends the circuit court erred in granting the
motion to dismiss. She asserts the clerk of the general district court timely received her notice of
appeal and filing fee, undermining the circuit court’s finding that she failed to perfect the appeal.
We agree.
Code § 16.1-106 grants an appeal of right from the general district court to the circuit
court if taken within ten days of the judgment being appealed. The act of noting or taking an
appeal under the statute is perfunctory. Godlewski v. Gray, 221 Va. 1092, 1097, 277 S.E.2d 213,
216 (1981). “All appeals shall be noted in writing. An appeal is noted only upon timely receipt
in the clerk’s office of the writing.” Rule 7A:13. Receipt, in this context, is not synonymous
with acceptance. See Black’s Law Dictionary 12 (6th ed. 1991) (acceptance is receipt “with
approval or satisfaction”). Because Johnson submitted a written notice of appeal that was timely
received by the clerk of the general district court, she satisfied the requirements of Rule 7A:13,
and the circuit court erred in holding Johnson failed to perfect the appeal. Accordingly, the
judgment is reversed and this case is remanded to the circuit court for further proceedings
consistent with this order.
This order shall be certified to the said circuit court.
A Copy,
Teste:
IClerk

2

VIRGINIA:
IN THE GENERAL DISTRI

T COURT FOR THE CITY

Case No. 1600823 7-00
Trial Date: December 6, 2016
udge: The Honorable Douglass B

OF PORTMOUTH

. Ottinger

Veronica M. Johnson
Plaintiff, pro se
v.
Rock Solid Janitorial, Inc.
Defendant, jointly and severally
Selective Insurance Group, Inc.
^efendant, jouitly and severally
■ .-? ' j

Defen^t1"31^06 C°mpany of America
defendant, jointly and severally

ton lha

gai-jC,
^ u us copy of
h fsooro me Portsf.ioutr General Disfctor
Cm11, that i have custody d the (Qofxu,
am th-s

Selective Way Insurance Company
Defendant, jointly and severally

•>.^S^5SSal;

Safe-

OGi^K

of that recoitl—

^peputyCf^tt

ORDER

•14, ($ 12,455.14 as medical benefit
Payment balance and $12,000.00 as
punitive damagesj.Defend

ants appeared by Counsel.

Upon consideration of the

rgument and the evidence presented, it is:

adjudged, ORDERED, AND DECREED that PI
Johnso^s^^ judgment in the amount of $
(J/T/t-wf f/,

d-lHI'L r\Jj+%

aintiff Veronica M.

CL

vx APPtA/D/X £ "

$

0

as medical benefit balance due and $

o

as

punitive damages.
/

I

f

ENTER:

Date:
I ASK FOR THIS:
1SrtSr1 C

Veronica M. Johnson, Plaintiff, pro se
166 Yorkshire Road
Portsmouth, Virginia 23701
757-465-0348 Telephone
SEEN AND OBJECTED TO:

Kelley C. Holland (VSB No. 79627)
WILLIAMS/MULLEN
222 Central Park Avenue
Suite 1700
Virginia Beach, Virginia 23462
757-499-8800 Telephone

•
fcs dxutnem m whicn me
ssorauic&tscrt is Gifcmd is a true copy of
e resvrci m the Portsmouth Genera) fcfetricr
©outt, mat 1 have custody of the record
at I sm the cpfcdian of that recok
□ Clerk

2

Deputy-Gtet*

<?/ y

VIRGINIA: IN THE CIRCUIT COURT FOR THE CITY OF PORTSMOUTH
Veronica M. Johnson,
Plaintiff
Case No.: CL16-3713-01

v.
Rock Solid Janitorial, Inc., et al,
Defendants
ORDER

The Plaintiffs Motions to Clarify the Clerk's Role in selection of case file numbers
and issues of the Plaintiffs Due Process Rights are DENIED.
The Clerk of this Court is responsible for the filing of documents and other matters.
It does not matter what number the clerk selects for a case file.
This matter is scheduled for trial on November 26,2018, and all other pre-trial
motions on, September 24, 2018. This case is the same case which was heard by the
Supreme Court of Virginia, which reversed the decision of the former trial judge. It is the
same case and the matter will be tried de novo as mandated by the Supreme Court of
Virginia.
ENTERED:

fTVTXxrvna^
JUDGE DESIGNATE
A Copy, Teste: Cynthia P. Morrison
Clerk ofthe Cirouit.Cpi^of the
City offortsmouth, Virginia

yuMJb1

* AppewD/x

"

D.C.

v
VIRGINIA: IN THE CIRCUIT COURT FOR THE CITY OF PORTSMOUTH .
VERONICA M. JOHNSON,
Plaintiff,
v.

)
)
)
)

)

ROCK SOLID JANITORIAL, INC.
and
SELECTIVE INSURANCE CO.
OF AMERICA,
Defendants.

Case No. CL16003713-01

)
)
)
)
)
)
)
)
)

ORDER
On September 24, 2018, the parties appeared before the Court, by counsel and pro se, to
be heard on Plaintiff Veronica M. Johnson’s (“Ms. Johnson” or “Plaintiff’) Motion to Enter
Judgment for Virginia Supreme Court Appeals Costs, Motion to Enter Summary Judgment in this
Case, Motion to Enter an Order Declaring Plaintiff is Entitled to Jury Trial to Determine the
Amount of Punitive Damages for Bad Faith Insurance Practices, Motion to Enter Order Declaring
Plaintiff is Entitled to an Award of Sanctions and Motion for Cameras in the Courtroom.
Upon consideration of the pleadings and briefs filed herein, the evidence presented ore
tenus and the arguments of Defendants’ counsel and Plaintiff heard by the Court, and for the
reasons stated from the bench and incorporated herein, the Court finds:
a.

Plaintiff shall recover costs in the amount of $50.00, as stated in the Itemized

Statement of Costs from the clerk of the Supreme Court of Virginia dated June 21, 2018, to be
paid within two (2) weeks from the date of the hearing;
b.

Plaintiff is not entitled to summary judgment as there are genuine issues of fact in

dispute;

* APPENDIX G-"

c.

Plaintiff is not entitled to an award of punitive damages therefore her claim for

punitive damages for Bad Faith Insurance Practices is dismissed;
d.

Plaintiff is not entitled to an award of sanctions therefore her claim for sanctions is

dismissed; and
e.

Plaintiffs request for cameras in the courtroom is improper and therefore denied.

Accordingly, it is hereby ADJUDGED, ORDERED and DECREED that:
1.

Plaintiff shall recover costs in the amount of $50.00, as stated in the Itemized

Statement of Costs from the clerk of the Supreme Court of Virginia dated June 21, 2018, to be
paid within two (2) weeks from the date of the hearing;
2.

Plaintiffs Motion to Enter Summary Judgment is DENIED;

3.

Plaintiffs Motion to Enter an Order Declaring Plaintiff is Entitled to Jury Trial to

Determine the Amount of Punitive Damages for Bad Faith Insurance Practices is DENIED with
her claim for punitive damages for Bad Faith Insurance Practices DISMISSED;
4.

Plaintiffs Motion to Enter Order Declaring Plaintiff is Entitled to an Award of

Sanctions is DENIED with her claim for sanctions DISMISSED; and
5.

Plaintiffs Motion for Cameras in the Courtroom is DENIED.

The Clerk is directed to send an attested copy of this Order to all parties and counsel of
record.
IT IS SO ORDERED.
This

dayof^^ga018

------Judge H. Thomas Padrick, Jr.
A Copy, Teste: CynthiaP. Morrison
Clerk of the Circuit Court of the
City of Portsmouth, Virginia
2

By

D.C.

I ASK FOR THIS:

Kelley C. Holland, Esq. (VSB No. 79627)
kholland@williamsmullen.com
WILLIAMS MULLEN
A Professional Corporation
222 Central Park Avenue, Ste. 1700
Virginia Beach, Virginia 23462
(757) 499.8800 (telephone)
(757) 473.0395 (facsimile)
Counsel for Defendant/s

SEEN AND OBJECTED TO:

Veronica M. Johnson
166 Yorkshire Road
Portsmouth, Virginia 23701
Pro se

36986376J

3

Additional material
from this filing is
available in the
Clerk's Office.

